The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
OFFICE OF
       O INSPECTOR GENERAL




       UNITED
       U      STATES
              S      INTERNA
                     I     ATIONAL
                                 L TRADE
                                       E COMMIISSION

                                    WASHINGT
                                           TON, DC 204336



       CTRONIC TRA
VIA ELEC         ANSMISSION
                          N



April 28,, 2011                                                          O
                                                                         OIG-JJ-006


Chairman
       n Okun:

This mem
       morandum trransmits the Office of In   nspector Genneral’s final rreport Auditt of Log
Managemment OIG-AR-11-10. In     n finalizing th
                                               he report, w
                                                          we analyzed mmanagementt’s
commentts on our draaft report and
                                 d have includ ded those coomments in ttheir entiretyy in
Appendix
       x A.

This repoort contains three
                      t     recommmendations for correctivve action. Inn the next 300 days,
please prrovide me wiith your man nagement deecisions desccribing the sppecific actioons that you
will take to implemen nt each recommendation n.

       ou for the co
Thank yo           ourtesies exteended to my
                                           y staff duringg this audit.

Sincerely
        y,



Philip M. Heneghan
Inspectorr General
                              U.S. International Trade Commission
                                           Audit Report



Table of Contents
Results of Audit ............................................................................................. 1

Problem Areas ............................................................................................... 2
   Problem Area 1: Server, network, and security infrastructure is not being centrally
   monitored with the Commission’s designated Log Management tool. .......................... 2

      Recommendation 1: Fully configure the Security Information and Event
      Management (SIEM) tool to monitor all ITCNet infrastructure. ................................ 2

   Problem Area 2: Log data is not being effectively used. ............................................... 3

      Recommendation 2: Configure the SIEM tool to provide reporting to groups
      responsible for the operations of workstations, applications, databases, servers,
      security, and network management............................................................................. 4

   Problem Area 3: Clock synchronization is not fully implemented on ITCNet. ............ 4

      Recommendation 3: Configure all ITCNet devices to synchronize with a central
      time source. ................................................................................................................. 5

Management Comments and Our Analysis ............................................... 5

Objective, Scope, and Methodology ............................................................ 6

Appendix A: Management Comments on Draft Report .......................... a




OIG-AR-11-10                                                   -i-
                      U.S. International Trade Commission
                                   Audit Report


                                  Results of Audit
The objective of this audit was to determine:

       Are system logs configured and monitored in a way that adds value to the
       operation of ITCNet?

No, the ITC has not configured its systems logs in a way that adds value to the operation
of ITCNet.

Network devices such as workstations, servers, and firewalls create logs listing
information about operational actions as they occur. This information can include the
who, what, when, where, why, and how of the following types of data:

   Ɣ   Success or failure of login attempts;
   Ɣ   Permission changes;
   Ɣ   Unusual system loads;
   Ɣ   Resource access (suspicious and otherwise);
   Ɣ   Changes in system performance; and
   Ɣ   System and application errors.

The hundreds of devices on ITCNet can potentially generate millions of logged events
per day, requiring the use of an automated program to collect, analyze, and efficiently
distribute this data to the groups responsible for managing these systems. If the logged
data does not get to the right people at the right timeʊlogging is of limited value.

A log management program adds the most value by collecting log data from all
infrastructure devices, including firewalls, application servers, authentication devices,
and network equipment. This program would be designed from the ground up with input
from multiple groups, including server operations, network management, database and
application administrators, desktop support, network security administrators, and IT
management. The program would monitor for both minor and severe incidents, storing
aggregate data on each, and report instantly to the respective responsible groups for
immediate corrective action. These groups would maintain access to the tools available
in this program so that reports can be run on demand in order to gain an understanding of
current and historical activity.

ITC currently has numerous tools in place to collect and analyze logs. One tool collects
data about network traffic, analyzes this data to detect intrusions, and reports this
information to one network security engineer. Another tool collects data from
workstations, firewalls, the core switch, and a couple of servers, and reports this data to
another network security specialist. Still more tools exist that collect performance
metrics system status from a collection of servers and the core switch, reporting this data
to different operational staff.


OIG-AR-11-10                               -1-
                      U.S. International Trade Commission
                                   Audit Report


ITC possesses a number of tools, but it lacks a coherent log management program with a
comprehensive view of logs from all servers, security, and network devices, that provides
useful and timely information to all operational groups responsible for the upkeep of
ITC’s systems.

During the course of this audit, we identified three problem areas. First, the
Commission’s Security Information and Event Management tool has not been configured
to monitor the whole of ITCNet infrastructure, greatly limiting its value. Second,
although this tool is configured to monitor workstations, information being gathered by
the tool is not being reported to operational staff, further reducing the value of its
implementation. Finally, the clocks on all ITCNet devices are not synchronized, making
it difficult to correlate events affecting multiple devices.




                                   Problem Areas

                                 Problem Area 1:
 Server, network, and security infrastructure is not being centrally monitored with
              the Commission’s designated Log Management tool.


The USITC invested in a Security Information and Event Management tool to perform
automated log collection, analysis, and reporting of events network-wide on ITCNet.
With the exception of two servers, at the time of the audit the system was only shown to
be monitoring workstations on ITCNet, and was not configured to monitor the whole of
the server, network, and security infrastructure.

Networked computer devices are capable of producing detailed logs of system activity.
Depending on the capabilities of each device, these logs can record tens of thousands of
events per day, making it impossible for a human to read, much less analyze, these
events. For this reason, organizations implement automated systems to capture, analyze,
and report on this log data.

ITC will not be fully aware of events happening across its server, security, and network
infrastructure until its SIEM tool is configured to effectively monitor all devices in the
ITCNet infrastructure.

Recommendation 1:

Fully configure the Security Information and Event Management (SIEM) tool to monitor
all ITCNet infrastructure.



OIG-AR-11-10                                -2-
                      U.S. International Trade Commission
                                   Audit Report


                                   Problem Area 2:
                         Log data is not being effectively used.


The output of an effective log management system is the communication of useful
information to responsible parties. On ITCNet, we found repeated errors being logged on
every workstation we examined. An effective log management system would have
identified and reported this as a problem for resolution by operational staff.

All devices on the USITC network are capable of generating logs of events. These logs
can identify a range of events, including configuration changes, hacking attempts, and
misconfigured software.

All USITC workstations running Microsoft Windows XP maintain an Application event
log that stores event data related to applications. Anyone can view this log by performing
the following steps:

1.     Right-click “My Computer”;
2.     Click “Manage”;
3.     On the left side, click “Event Viewer”;
4.     Double-click “Application” in the right pane; and
5.     The pane changes to show a number of events regarding applications on the PC.

In one example, over a 24 hour span, a single workstation logged 122 errors with the
source of “crypt32”, with two different messages as follows:

Ɣ      Failed extract of third-party root list from auto update cab at:
       <http://www.download.windowsupdate.com/msdownload/update/v3/static/trusted
       r/en/authrootstl.cab> with error: A required certificate is not within its validity
       period when verifying against the current system clock or the timestamp in the
       signed file; and

Ɣ      Failed auto update retrieval of third-party root list sequence number from:
       <http://www.download.windowsupdate.com/msdownload/update/v3/static/trusted
       r/en/authrootseq.txt> with error: This network connection does not exist.

The severity and impact of logged events vary. These specific errors indicate that the
workstation is misconfigured for ITC’s network, and is repeatedly trying and failing to
perform a specific operation. In this case, users are most likely not impacted by this
error, but this type of event ends up filling the logs, making it more difficult to find other
more pertinent events when troubleshooting system problems. A review of two other
workstations online since last year found the following errors related to crypt32:




OIG-AR-11-10                                 -3-
                      U.S. International Trade Commission
                                   Audit Report

       Ɣ       Workstation 1: 54,482 of 61,226 (89%) total events between 5/28/2010
               and 3/4/2011 (195 per day); and
       Ɣ       Workstation 2: 78,645 of 86,521 (91%) total events between 6/2/2010 and
               3/4/2011 (286 per day).

A simple configuration change is all that is required to resolve the cause of these errors
and to stop the clogging of workstation Application logs. An effective log management
program would report that an event is occurring as often as 80,000 times per day across
ITC’s 400 workstations, and this information could then be used to prioritize resources
for resolving such common and easily solved problems.

The log management program is not effectively reporting common system errors to
responsible operational groups, resulting in the delayed resolution of system errors.

Recommendation 2:

Configure the SIEM tool to provide reporting to groups responsible for the operations of
workstations, applications, databases, servers, security, and network management.



                                 Problem Area 3:
             Clock synchronization is not fully implemented on ITCNet.


In a review of 10 ITCNet devices, we found that the clocks of half of them were not
synchronized.

To understand and correlate the events taking place on a network, it is more important to
have a consistent “ITCNet time” than the “correct time,” (but these are not mutually
exclusive). All network devices maintain a system clock, which is used as a timestamp
when logging events on that device. This synchronized system clock is a core
requirement for network analysis and forensics. In order to correlate an incident that
affects multiple systems, clocks on all systems must have the same time.

To maintain clock synchronization on a network, two things are required:

   1. A central time server; and
   2. Configuration of each device to set its time to that central time server using
       Network Time Protocol (NTP).

ITCNet does have a central time server, and some systems are synchronizing their clocks
with this server. Visible evidence of this is that the clocks are synchronized across two




OIG-AR-11-10                               -4-
                     U.S. International Trade Commission
                                  Audit Report

completely different systems: workstations and desk phones, both of which synchronize
with the central time server.

In our survey of 10 infrastructure devices, including servers, switches, routers, and
firewalls, only five were found to share the same time. The five devices that didn’t have
“ITCNet time” were not configured to synchronize with the central time server.

We found that while USITC has implemented a time source for the network, not all
systems are configured to synchronize with this central time source.

Recommendation 3:

Configure all ITCNet devices to synchronize with a central time source.




              Management Comments and Our Analysis

On April 19th, 2011, Chairman Deanna Tanner Okun provided management comments to
the draft audit report. The Chairman agreed that there are deficiencies in the
Commission’s Log Management Program that need to be corrected improve its
effectiveness.

Based on the recommendations we made in our draft report, the Office of the CIO has
resolved the issues with clock synchronization, and has added systems to the
infrastructure being monitored.




OIG-AR-11-10                               -5-
                     U.S. International Trade Commission
                                  Audit Report


                    Objective, Scope, and Methodology
Objective:

“Are system logs configured and monitored in a way that adds value to the operation of
ITCNet?”

Scope:

This audit focused on the operational management of logs created on USITC systems as
of February 7th, 2011 with a primary focus on the logging capabilities of critical
infrastructure, including Active Directory Domain controllers, authentication devices,
network infrastructure, security device infrastructure, and other devices critical to the
core functions of USITC.

Methodology:

a. Interview program staff responsible for logging.
b. Interview operational staff receiving logs.
c. Collect inventory of network infrastructure devices.
d. Identify primary log management system in use.
e. Assess log management status of core infrastructure.
f. Identify and analyze logging on Active Directory authentication servers.
g. Review logging capabilities of RSA authentication servers.
h. Identify existing network time protocol server(s).
i. Assess time synchronization of infrastructure devices with the network time protocol
   server(s).
j. Review syslog settings of devices forwarding to primary log management system.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-11-10                               -6-
                U.S. In
                      nternation
                               nal Trade Commission
                             Apppendix A


    Appendix A: Ma
                 anagemeent Comm
                               ments on
                                      n Draft Report




OIG--AR-11-10
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
